No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

c

RESPONDENT(S)
PROOF OF SERVICE

.

___ , do swear or declare that on this date,
, 20_2£jas required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The pames and address j)f those served are as follows-

) Qyti

nr

i4fek4 S -PTTaX JyA C? V KD, S rrTtegvi

77

I declare

r penalty of perjury that the foregoing is true and c

Executed on

1O

i^,\

